No

M°
IrV?:.'

IN THE
SUPREME COURT OF THE UNITED STATES

FR, n sp\ n Q FI Q fl

MICHAEL SKILLERN
Petitioner
v

UNITED STATES OF AMERICA
Respondent

FILED
JUN 2 8 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the
Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

Michael Skillern
Reg. No. 44656-379
FPC Beaumont
P.O. Box 26010
Beaumont, Texas 77720

CERTIFICATE OF INTERESTED PERSONS
Petitioner:

Michael Skillem

1. District Court Criminal Proceeding;
For the Government:
U.S. Attorney Roberta J. Bodner;
AUSA Sara Sweeney
400 W. Washington Street, Ste. 3100
Orlando, FL 32801
Counsel for Michael Skillem:
Stanley G. Schneider
Schneider & McKinney, P.C.
440 Louisiana, Ste. 800
Houston, Texas 77002;
Michael P. Maddox
2102 W. Cleveland Street
Tampa, FL 33606
2. Direct Appeal:

For the Government:
U. S. Attorney, Roberta J. Bodnar
35 SE 1st Avenue, Ste. 300
Ocala, FL 34471;
David M. Lieberman,
U.S. Dept, of Justice, Appellant Div.
950 Pennsylvania Ave. N.W.
Washington, DC 20530;
Counsel for Michael Skillem:
Stanley G. Schneider
Schneider & McKinney, P.C.
440 Louisiana, Ste. 800
Houston, Texas 77002

3. Petition for Writ of Certiorari

For the Government
None;
For Michael Skillem, Pro Se.

For the Government:
AUSA Sara Sweeny,
400 Washington St., Ste. 3100
Orlando, FL 32801;

4. 28 U.S.C. Section 2255 Motion

For Michael Skillem, Pro Se;
5. Application for Certificate
of Appealability:

For the Government:
None
For Michael Skillem, Pro Se;

n

QUESTION PRESENTED FOR REVIEW
QUESTION I
DOES THE ELEVENTH CIRCUIT’S RULE ENUNCIATED IN
CRUTCHFIELD v WAINWRIGHT, 803 F3dll03 (11th Cir. 1986)
ABROGATE

OR

MODIFY

THE

SUPREME

COURT

DECISION AS STATED IN GEDERS v UNITED STATES, 425
U.S. 80 (1976), AND IF NOT IS PETITIONER ENTITLED TO
HAVE THIS COURT ISSUE AN ORDER FROM THIS COURT
GRANTING CERTIORARI, VACATING JUDGMENT AND
REMANDING TO THE ELEVENTH CIRCUIT’S UNITED
STATES CIRCUIT JUDGE BARBARA LAGOA, TO REVERSE
HER DECISION DENYING PETITIONER’S APPLICATION
FOR COA, AND GRANT THE COA FOR THE QUESTION OF
WHETHER

ON

NOT

DID

CRUTCHFIELD

HOLDING

VIOLATE THE RULE IN GEDERS BY IMPERMISSIBLY
REQUIRING

A TESTIFYING

DEMONSTRATE

NEED

OR

CRIMINAL
CAUSE

TO

DEFENDANT
SPEAK

COUNSEL OVER A LONG OVERNIGHT TRIAL RECESS.

in

TO

TABLE OF CONTENTS
page no.
CERTIFICATE OF INTERESTED PERSONS

i-ii

QUESTION PRESENTED FOR REVIEW......

in

TABLE OF CONTENTS..................................

IV

TABLE OF AUTHORITIES

,v-vi

CONSTITUTIONAL AND STATUTORY PROVISIONS

Vl-Vll

OPINIONS BELOW

Vll

JURISDICTIONAL STATEMENT

vm

STATEMENT OF THE CASE

1-4

REASONS FOR GRANTING THE WRIT

4-6

ARGUMENT AND AUTHORITIES

6-12

CONCLUSION

12-13

CERTIFICATE OF FILING AND SERVICE

14

CERTIFICATE OF COMPLIANCE

15

APPENDIX COVER SHEET/INDEX

16

IV

TABLE OF AUTHORITIES
Supreme Court Cases
Berger v United States, 295 U. S. 78, 88 (1935)---------------

4

Bradshaw v Estelle, 463 U.S. 880, 893 n.4 (1983)-------------

4

Geders v United States, 425 U.S. 80 (1975)--------------------

passim

Miller-El v Cockrell, 537 U.S. 336 (2003)---------------------

4

Nebraska Press Ass ’n v Stuart, 427 U.S. 539; 96 S.Ct. 2791;
49L.Ed.2d 683 (1976)---------------------------------------------Perry v Leeke, 488 U.S. 272 (1986)-----------------------------

9-10
passim

Slack v McDaniel, 529 US. 472 (2000)------------------------

■4,5

Federal Circuit Court Cases
Crutchfield v Wainwright, 803 F.2d 1103 (11th Cir. 1986)—

-passim

Mudd v United States, 798 F.2d 1509 (DC Cir. 1986)--------

7

Murphy v United States, 634 F.3d 1303, 1306-----------------

5

Sanders v. Lane, 861 F.2d (7th Cir. 1988)----------------------

9

United States v Dilapi, 651 F.2d 648 (2d Cir. 1981)----------

9

United States v Johnson, 267 F.3d376, 379 (5th Cir. 2001)—

8

United States v Noriega, 752 F. Supp. 1045 (S.D. Fla. 1990)

10

United States v Torres, No. 20-50092 (5th Cir. 2021)--------

8,9

United States v Triumph Capital Group, Inc. et al, 487 F.3d 124 (2d Cir.
2007)-------------------------------------------------------------------------------- 11
Constitutional Provisions
U.S. Const. Amend. VI

-passim

Statues
28U.S.C. Section 1254(1)

Vl-Vll

28 U.S.C. Section 1746—

15
v

28 U.S.C. Section 2106

■Vl-Vll

28 U.S.C. Section 2253

-passim

28 U.S.C. Section 2255

-passim

Supreme Court of the United States Rules
Supreme Court Rule 12.2-----------------------

■Vll

Supreme Court Rule 13.1-----------------------

■Vll

Supreme Court Rule 13.3-----------------------

■Vll

Supreme Court Rule 33(d)---------------------

15

PRIOR RELATED APPEALS
United States v Nelson, Skillem, et al, 884F.3d 1103 (11th Cir. 2018);
Skillem v United States, Petition for Writ of Certiorari- Denied 2019.

CONSTITUTIONAL AND STATUTORY PROVISIONS
Sixth Amendment to the Constitution of the United States provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the States and district wherein the crimes
have been committed, which district shall have been previously ascertained
by law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for
his defense.
28 U.S.C. Section 1254 provides in part:
Cases in the courts of appeals maybe reviewed by the Supreme Court by the
following methods:
(1). By writ of certiorari granted upon the petition of any party to any civil
or criminal case, before or after rendition of judgment or decree;
(2). ...

vi

28 U.S.C. Section 2106 provides in part:
The Supreme Court or any other court of appellate jurisdiction may affirm,
modify, vacate, set aside or reverse any judgment, decree, or order of a court
lawfully brought before it for review, and may remand the cause and direct
the entry of appropriate judgment, decree, or order, or require such further
proceeding to be had as may be just under the circumstances.
28 U.S.C. Section 2253 provides in part:
(a) In a habeas corpus proceeding or a proceeding under section 2255 before
a district judge, the final order shall be subject to review, on appeal, by the
court of appeals for the circuit in which the proceeding is held.
(b)...
28 U.S.C. Section 2255 provides in part:
(a) A prisoner in custody under sentence of a court established by Act of
Congress claiming the right to be released upon the ground that the sentence
was imposed in violation of the Constitution or laws of the United States, or
that the court was without jurisdiction to impose such sentence, or that the
sentence was in excess of the maximum authorized by law or is otherwise
subject to collateral attack, may move the court which imposed the sentence
to vacate, set aside or correct the sentence.
(b)...
OPINIONS BELOW
The United States Court of Appeals for the Eleventh Circuit opinion
Affirming Petitioner’s convictions and sentence, is provided herewith in
Appendix A. The United States Court of Appeals for the Eleventh Circuit
opinion denying Petitioner’s Application for COA is provided herewith in
Appendix B.

vii

JURISDICTIONAL STATEMENT
This Court has jurisdiction pursuant to 28 USC Section 1254(1) and 28 USC
Section 2106 and Supreme Court Rules 12.2, 13.1 and 13.1, and is subject to
this Court’s Order of March 19, 2020, (No. 589, U. S. Lexis 1643) extending
the time in which a petition for writ of certiorari may be filed. The date that
this petition for writ of certiorari is due under Supreme Court Rule 13.1
excluding the additional time under this Court’s Order (No. 589, U. S. Lexis
1643), is July 15. 2021: alternatively should the extended time frame
continue to be applicable this petition for writ of certiorari will be due on
September 13, 2021.

THE REMAINDER OF THIS PAGE INTENTIONALLY LEFT BLANK

vm

STATEMENT OF THE CASE
1. During the course of a jury trial in late January 2016-February 3, 2016,
at the conclusion of the first day of Michael Skillem’s (hereinafter
Petitioner) testimony, the presiding judge, United States District Court
Judge, Hon. Mary S. Scriven issued a sequestration order that limited
Petitioner’s full access to Petitioner’s counsel during the first overnight
recess, after that day of trial, that is, numerical day 10 of the trial. (See
Appendix C, at page 208 line 22-25; page 209 lines 1-9; Excerpt from Trial
regarding Judge Scriven’s impermissible sequestration order). There is no
dispute as to the effect of the sequestration order, nor the language used by
Judge Scriven, that is, the order denied Petitioner the opportunity to engage
in an overnight discussion regarding his testimony given at trial and his
impending testimony, with his lead trial counsel, Stanley G. Schneider,
(Atty. Schneider) or any other of the two addition lawyers representing
Petitioner, in his criminal trial, thereby denying Petitioner’s Sixth
Amendment right of, access to counsel during that overnight (more than 1617 hours), recess. The record shows and is clear that after the first day of
Petitioner’s testimony, counsel (Stanley G. Schneider) asked Judge Scriven
whether he could speak to Petitioner about matters other than his testimony
that evening or any other matters that may come up. Further the record is
clear that Judge Scriven responded by granting Atty. Schneider’s request
with the following restriction: “ anything about the proceeding is fine, who
is coming, that’s fine, but just not his testimony or his impending
testimony”. (emphasis added). (See Appendix A; page 4, last grammatical
paragraph - page 5; and fn 1, at bottom of page 5) There is no dispute that
Petitioner was denied his fundamental, Sixth Amendment right, of
1

unrestricted access to counsel during an overnight recess of 16-17 hours or
more by Judge Scriven’s sequestration order, which establishes a
constitutional question. Further the record is clear that at the conclusion of
Petitioner’s second day of trial, while Petitioner was still testifying, Judge
Scriven reversed her order and instructed Petitioner that he was free to talk
to his attorney during the overnight break on day 11 of the trial (end of
second day of Petitioner’s testimony), without the previous restriction
regarding Petitioner’s testimony. (See Appendix A-Eleventh Circuit opinion;
page 5, at/« 1).
On direct appeal the Eleventh Circuit panel, explained the following
as a basis to deny Petitioner’s Sixth Amendment argument that the
sequestration order constituted “structural error” and not cognizable under
harmless error analysis, and is automatically reversible error, holding that:
1. “Although no existing precedent resolves that precise question,
even the Government seems to concede that answer, at least is as a general
matter, is probably yes. See Br. of Appellee at 52 (“[T]he district court’s
limitation here impermissibly constrained Skillem’s ability to consult with
his attorney during the first overnight recess”). But there is a wrinkle here—
it was Skillem’s lawyer who actually proposed the limitation that Skillem
now challenges. ...” (See Appendix A; page 7)
2. “As explained below, because the trial record doesn’t indicate
that either Skillem or his lawyer had any intention or desire to discuss his
testimony during the recess, Skillem can’t show that he was actually
deprived of his right to counsel, as required by our en banc decision in
Crutchfield.” (See Appendix A; page 8)
As stated by the Eleventh Circuit Panel, there is no Eleventh Circuit
precedent which controls the precise question presented by Petitioner, but
there is Supreme Court precedent that controls the precise issue, that is,
Geders v United States, 425 U.S. 80 (1976) with regard to overnight trial

2

recesses, and Perry v Leeke, 488 U.S. 472 (1986) with regard to trial
recesses longer than 15 minutes.
2.

Petitioner was convicted,

(four (4) counts of mail

fraud(18 USC

Sec. 1341), four (4) counts of wire fraud(18 USC Sec. 1343), one (1) count
of conspiracy to commit mail and wire fraud(18 USC Sec. 371), one (1)
count of conspiracy of conspiracy to commit money laundering 18 USC
Sec. 1956(h), and (acquitted of three substantive money laundering charges),
after a (2-3 week duration) jury trial in the United States District Court for
the Middle District of Florida, (Tampa Division), the Honorable Mary S.
Scriven, United States District Judge, presiding.

Petitioner, a first time

offender, was sentenced to a term of imprisonment of 120 months, three (3)
years supervised release, restitution in the amount of $6,862,579.16 and a
special assessment of $1000.00.

Petitioner who is currently incarcerated,

was represented at trial by Attorney Stanley G. Schneider, (hereinafter Atty.
Schneider). Atty. Schneider also represented Petitioner on direct appeal to
this Court. Petitioner testified for approximately 2 and 1/2 days over 3
calendar days of trial. On the first day of Petitioner’s trial testimony, it is
undisputed that the trial judge issued a sequestration order that, restrained
Petitioner’s access to counsel in violation of Petitioner’s fundament Sixth
Amendment rights and in conflict with Supreme Court jurisprudence.
3. Subsequent to trial, and exhaustion his appeal rights, Petitioner filed a
post conviction habeas corpus motion pursuant to 28 USC Section 2255
identifying multiple constitutional issues, not limited to but including
ineffective assistance of counsel issues. Petitioner’s 28 USC Section 2255
Motion (hereinafter 2255 Motion), was denied by the District Court on
August 25, 2020, notice of appeal was timely filed and the appeal fee paid
and this Application for Certificate of Appealability followed.
3

3.1

The Petitioner on the first day, of his testimony during trial, was

ordered by the District Court to not discuss anything in regard to his
testimony, with his lawyer, Atty. Schneider, during the overnight recess and
a long lunch recess, as well as any other recess that may have occurred
during day one of Petitioner’s trial testimony.
3.2

The District Court apparently realized the constitutional error and

withdrew her sequestration order on day two of Petitioner’s testimony. (See
finding by this Court’s Panel during oral argument of the direct appeal of
Petitioner’s case).
3.3

Petitioner was denied access to counsel overnight between day one of

his trial testimony and day two of his trial testimony. Atty. Schneider for
fear of being perceived to have violated the District Court’s sequestration
Order refused to dine with Petitioner or discuss any subject with Petitioner
during the overnight recess.

REASONS FOR GRANTING THE WRIT
4. To show that a Certificate of Appealability (COA) should issue under 28
USC Sec. 2253(c), a defendant need only to make a substantial showing that
jurists of reason could disagree with the district court’s resolution of his
constitutional claims.

(See Miller-El v Cockrell, 537 U.S. 336 (2003).

Courts of Appeals ask only if the district court’s decision was debatable. Id.
see also Bradshaw v Estelle, 463 U.S. 880, 893 n.4 (1983). Further the
inquiry for a COA is a threshold inquiry and a separate proceeding, one
distinct from the underlying merits determination. (Miller-El citing Slack v
McDaniel, 529 U.S. 472 (2000).
Further, this Court holds:

4

“In an appeal challenging a [Section] 2255 ruling, we review the legal issues
de novo and the factual findings for clear error”. (See Murphy v United
States, 634 F.3d 1303, 1306 (11th Cir. 2011).
5.

Petitioner is a federal prisoner serving a sentence of 120 months

imprisonment and is currently imprisoned at the Federal Prison Camp
located in Beaumont, Texas.

Petitioner’s Application for Certificate of

Appealability (COA) was denied by United States Circuit Judge, Honorable
Barbara Lagoa, conclusion holding :
“As such, Skillern ’s motions for a COA are DENIED because he has
failed to make a substantial showing of a constitutional right.''' 28 USC
Section 2253(c)(2). (See Appendix B at page 39); (See also Appendix B at
pages 25-27; Judge Lagoa’s general discussion of denying the COA because
Petitioner has failed to demonstrate prejudice from being denied access to
counsel during the first over night recess and the lunch recesses, that all
exceed 15 minutes in duration during the Petitioner’s testimony in his
criminal trial).
Such basis for denial is squarely contrary to this Court’s rule in
Geders and Perry, and is a constitutional error, that is, denial of Petitioner’s
Sixth Amendment right of access to counsel, at a critical stage of the
proceeding.
Pursuant to the Supreme Court of the United States’ (hereinafter referred to
as Supreme Court) opinion in, Slack v McDaniel, 529 U.S. 472 (2000),
which held the following:
“Second, when the district court denies a habeas petition on
procedural grounds without reaching the prisoner’s underlying
constitutional claim, a COA should issue (and an appeal of the district
court’s order may be taken) if the prisoner shows at least, that jurist of
reason would find it debatable whether the petition states a valid claim
of the denial of a constitutional right, and that jurists of reason would
find it debatable whether the district was correct in its procedural
ruling.”

5

Petitioner respectfully requests that this Court grant this Petition for Writ of
Certiorari because denial of access to counsel during an overnight recess is
a violation of Petitioner’s fundamental Sixth Amendment rights to access of
counsel, is a constitutional issue and under Geders, is automatically
reversible error. As demonstrated below, jurists of reason have found this
issue debatable and the circuits have split in regard to the Eleventh Circuit’s
analysis under their “common sense rule” (see Crutchfield v Wainwright,
803 F.2d 1103 (11th Cir. 1986)), requiring a defendant or counsel to request
in some, (still not succinctly defined), dialog for permission to confer over
long recesses and overnight during a testifying defendant’s trial.
6. Petitioner’s Application for Certificate of Appealability (COA) sought
review of the constitutional issue setout herein and there is a deep and
mature circuit split as to whether or not a sequestration order issued against a
testifying criminal defendant that in any way restricts access to counsel on
an overnight trial recess is subject to harmless error review, or such other
conditions as is the Eleventh Circuit’s “common sense” rule (See
Crutchfield; (plurality opinion)), of having to demonstrate to the trial judge’s
satisfaction that a defendant or his lawyer desire to confer overnight without
restrictions. The Eleventh Circuit’s Crutchfield decision is in the minority
of circuits on this issue, and is contrary to this Court’s holding in Geders and
to dicta in Perry.
ARGUMENT AND AUTHORITIES

7. The Circuit Judge’s opinion addressed the first COA issue and found as
follows:

6

“As to his argument that he had been denied counsel by the district
Court’s recess instructions, we held that, under our en banc decision in
Crutchfield v Wainwright, 803 F.2d 1103 (11th Cir. 1986), Skillern had not
shown that he was actually deprived of his Sixth Amendment right to counsel
because, notwithstanding the district court’s recess instruction, the record
was “entirely devoid of any indication—in any form—that Skillern or his
attorney planned or wanted to confer about his testimony during the
recess. ” (See Appendix B hereto; Circuit Judge Barbara Lagoa’s opinion
at page 11).
such holding is in accord with the Eleventh Circuit rule announced in a
plurality opinion, decided by the Crutchfield Court, holding:
“The defendant must show that the prohibition actually prevented the
opportunity to confer with counsel”, (citations omitted), “Once the
defendant makes the requisite showing, a new trial is warranted.” (citations
omitted).
7.1 Problematic with the decision denying Petitioner’s application for a
COA, is that it addresses only the ineffective assistance of counsel question
and does not consider that even if there was no conduct that would support a
claim of ineffective assistance of counsel, the Sixth Amendment deprivation
wrought by the District Court’s sequestration order preventing Petitioner and
counsel from conferring regarding Petitioner’s testimony over more than a
16-17 hour overnight recess, is a constitutional question that was disposed
of, without careful analysis and consideration, of this Court’s Geders rule
and its application to the issue established by the uncontroverted facts of this
case, that is, Petitioner was denied by the district court’s sequestration order
unrestricted access to counsel at a critical stage of the proceeding that being
an overnight trial recess. (See Mudd v United States, 798 F.2d 1509 (DC
Cir. 1986); holding:
“We hold that an order that denies a criminal defendant the right to
consult with counsel during a substantial trial recess, even thought limited to
7

a discussion of testimony, is inconsistent with the sixth amendment of the
Constitution. We also find that the harm caused by this violation is such that
reversal is required without a showing of actual prejudice.”
Clearly had Petitioner’s case been in the DC Circuit it would have been
reversed and remanded without delay. Other circuits that have encountered
this issue of a restrictive sequestration order which deprived a testifying
criminal defendant of his/her Sixth Amendment right of access to counsel
during longer than 15 minute trial recesses have found that the
impermissible order is a constitutional violation and is not subject to a
prejudice analysis, just as the Geders opinion instructed. (See United States
v Torres, No. 20-50092 (5th Cir. May 19, 2021) holding:

“Here the district court prohibited Torres from speaking with his
counsel during a 13 hour overnight recess declared in the middle... . The
facts of this case fall squarely within the Geders rule; that is, a trial court
may not bar a testifying criminal defendant from all communication with his
attorney during an overnight recess. See United States v Johnson, 267 F.3d
376, 379 (5th Cir. 2001) (concluding that sequestration orders prohibiting
communications between defendant and counsel during an overnight recess
and a weekend recess were indistinguishable from Geders 425 U.S. 88). As
the Supreme court recognized, such a long interruption implicates “the
defendant’s right to unrestricted access to his lawyer for advice on a variety
of trial-related matter, that is controlling in the context of a long recess”
Perry, 488 U.S. at 284 (citing Geders, 425 U.S. at 88). Though discussions
during an overnight recess “will inevitably include some consideration of the
will
encompass
testimony”,
they
ongoing
defendant’s
matters that the defendant does have a constitutional right to discuss with his
lawyer, such as...”.
“Having found a violation, we next consider whether reversal is
The
required, or whether we should conduct plain error analysis.
Government argues that we should review the violation for plain error
because defense counsel did not expressly object to the sequestration order
at trial. However, we need not decide whether the objection was preserved.

8

Even under plain error review, the Geders, violation requires reversal
here”, (emphasis added); (Torres .id)
12 Sanders v Lane, 861 F.2d 1033(1988) states in dicta the following:
“In subsequent cases, every circuit that has considered the question
has found that a bar on attorney-client consultation during even a brief
recess can offend the sixth amendment. However courts are split concerning
(1) the prerequisites for establishing a violation; and (2) whether a violation
requires per se reversal or permits a harmless error analysis. See United
States v Dilapi, 651 F.2d 140 (2nd Cir. 1981) cert denied 455 U.S. 938, 102
S. Ct. 1428, 71 L.Ed.2d 648 (1982) (...), Perry v Leeke, 832 F.2d 837 (4th
Cir. 1987) (en banc) cert granted ...; Crutchfield v Wainwright, 803 F.2d
1103 (11th Cir. 1986), (en banc) (plurality), cert denied___U.S.____, 107 S.
Ct. 3235, 97 L.Ed.2d 740 (1987) (short recess; sixth amendment violation
only if defendant objects or indicates desire to consult with counsel, if
not per se reversal); see also Crutchfield 803 F.2d 1111 (Tioflat, J)’\
(emphasis added).
From the Sander’s court it seems that the Crutchfield case may have been
considered in the context of a short break not an overnight break. However
in the Petitioner’s direct appeal, post conviction 2255 Motion, and appeal of
the denial of a COA for the denial of his 2255 Motion, the district court and
the Eleventh Circuit both disregarded the length of the recess and applied a
rebranded ‘harmless error’ analysis as a “common sense rule” to justify their
refusal to reverse Petitioner convictions and sentence, and sent Petitioner to
prison without having insured Petitioner a fair trial.

(See United States v

Noriega, 752 F. Supp. 1045 (S.D. Fla. 1990) wherein the district court
acknowledged that the Eleventh Circuit noted that it is the district court’s
obligation to insure a fair trial and not the defendant’s obligation). In
Petitioner’s case, only this Court is in a position to correct the Sixth
Amendment violation that resulted in an unfair trial, conviction and ten (10)
year prison sentence that are unreliable and unconstitutional. (See Nebraska

9

Press Ass’n v Stuart, 427 U.S. 539, 96 S. Ct. 2791, 49 L.Ed.2d 683 (1976)
and United States v Noriega, 917 F.2d 1543 (11th Cir. 1990)(per curiam).
7.3

The record demonstrates that both Petitioner and counsel sought

clarification to the District Court’s sequestration order, although inartfully
articulated, for demonstrating that there was a desire to confer over the night
recess. (See Appendix C; Excerpt from Petitioner’s Trial Transcript; page
208, lines 20-25 and page 209 lines 1-9). There can be no question as the
record is complete and demonstrates that there was an impermissible
sequestration order that prevented Petitioner’s unrestricted, access to and
assistance from counsel, during one overnight trial recess and at least one
lunch long recess, occurring during and after Petitioner’s first day of
testimony and the next upcoming day of testimony.
8. Petitioner’s claim that his Sixth Amendment constitutional rights were

violated by a court order, restricting communication between Petitioner and
his trial counsel, as referenced above, is governed by two Supreme Court
precedents, Geders v United States, 425 U.S. 80 (1976), and Perry v Leeke,
488 U.S. 272 (1989). In Geders, the Court held that:
“an order preventing petitioner from consulting with his counsel
‘about anything’ during a 17 - hour overnight recess between his direct-and
cross-examination impinged upon his right to the assistance of counsel
guaranteed by the Sixth Amendment”. (425 U.S. at 91, 96 S. Ct. 1330).
Further the Court recognized that district courts have broad discretion to
limit witnesses’ communications while they are testifying in order to prevent
improper influence and coaching, but concluded that when the witness is
also the defendant, the Sixth Amendment significantly curtails this
discretion, Id, at 88, 96S. Ct. 1330. In addition the Court concluded and
held that:

10

“...a defendant’s right to counsel was violated, requiring automatic
reversal, when the trial court prevented him from consulting with his
attorney during an overnight recess.” Id. at 88, 96 S. Ct. at 1335.
In the case before this Court it is undisputed that for the first overnight
recess (during Petitioner’s testimony), Petitioner’s access to counsel was
restricted in regard to discussing his first day of testimony, and his upcoming
testimony the next day of trial. The Supreme Court and every other circuit
court that have addressed the issue of denial of a defendant’s right to access
of counsel, recognize such issue is a fundamental constitutional right of
criminal defendants. (Id. Perry).
District Court’s Sequestration Order Prohibited Petitioner’s Access to
Counsel Over-Night Recess, And During Lunch Recesses On The First
and Second Day of Petitioner’s Testimony
9. In the most fundamental terms, Petitioner’s Sixth Amendment right to
access of counsel was prohibited by the District Court’s sequestration order,
imposed, on the first day of Petitioner’s testimony, which included lunch
breaks and the first (approximately 16-17 hour) overnight recess, while
Petitioner was testifying.

The Supreme Court and many circuit courts

recognize this error as a “Constitutional error” and when present requires
automatic reversal, because prejudice is presumed and the error is not
cognizable under harmless analysis. In the case of United States v Triumph
Capital Group, Inc. et al, 487 F.3d 124 (2d Cir. 2007), in regard to a ban on
communications between a testifying defendant and trial counsel, stated:
“But as we have seen under Geders and Perry this interest will not
justify a substantial interference with constitutionally protected
communications. Geders, 425 U.S. at 91, 96S.Court 1330. And since
banning discussion of testimony over an overnight recess substantially
albeit indirectly, interferes with communication of constitutional
quality, and overnight ban on discussion of testimony falls squarely

11

within the rule of Geders. Nor can the fact that the ban was later
rescinded provide post-hoc justification for the initially unjustified
order.” (emphasis added).
10. As demonstrated above, multiple circuit courts of appeal that have
opined in similar cases involving Petitioner’s Sixth Amendment issue of
access to counsel being abrogated by a court order restricting unffetted
access to counsel, have split on the appropriate remedy and few if any have
the Eleventh Circuit’s “common sense rule” which essentially operates as a
rebranding of harmless error analysis, that modifies the rule in Geders. (See
United States v Bryant, 545 F.2d 1035 (6th Cir. 1976), extending Geders to
cover one-hour recesses; see also Mudd, holding:
“We find that a per se rule best vindicates the right to the effective
assistance of counsel. To require a showing of prejudice would not only
burden one of the fundamental rights enjoyed by the accused, see Powell,
287 US at 68-69, 53 S. Ct. at 64, but would also create an unacceptable risk
of infringing on the attorney - client privilege.”
It is the fact that different courts have held different tests analysis and
methodology for utilizing the rule in Geders’ or the rule in Perry,

that

demonstrates beyond speculation, that jurist of reason do and could find it
debatable whether Petitioner’s petition states a valid claim of the denial of a
constitutional right, and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.

The circuits

are split on this constitutional question, irrespective of the fact that this
Court has clearly settled the law of the land in Geders and Perry.
CONCLUSION
The District Court and the Eleventh Circuit, erred in denying Petitioner a
Certificate of Appealability on his claims presented in his habeas petition.

12

As held in Slack, an applicant for a certificate of appealability need not show
the appeal will succeed on the merits. Based upon the record, and upon
consideration of the foregoing, Petitioner respectfully requests that this
Court issue it’s Order Granting Certiorari, Vacating Judgment and
Remanding for consideration in light of Geders and Perry to consider the
merits of Michael Skillem’s claims. Petitioner seeks this Court to insure that
the Eleventh Circuit Judges follow, the rule in Geders, without the
requirement of a harmless error analysis established in Crutchfield that is
labeled their “common sense rule”
demonstrate

which requires the defendant to

entitlement to the guarantees afforded under the Sixth

Amendment, either Petitioner in this case is cloaked with the fundamental
Sixth Amendment guarantee of access to counsel or such right was
abrogated by the Eleventh Circuit’s Crutchfield opinion.
Respectfully submitted,

K:

Michael Skillem, pro se
Reg. No. 44656-379
FPC Beaumont
P.O. Box 26010
Beaumont, Texas 77720

13

